No. 20-928
IN THE

Supreme Court of the United States
NATIONAL COALITION FOR MEN, JAMES LESMEISTER,
AND ANTHONY DAVIS,
Petitioners,
v.
SELECTIVE SERVICE SYSTEM AND DONALD BENTON,
AS DIRECTOR OF SELECTIVE SERVICE SYSTEM,
Respondents.

CERTIFICATE OF SERVICE
I, Lindsay C. Harrison, hereby certify that I am a member of the Bar of this
Court, and that I have this 10th day of February 2021, caused a paper copy of the Brief
of GEN Michael Hayden, GEN Stanley McChrystal, LTG Claudia Kennedy, MG Randy
Manner, MG Gale Pollock, BGen Stephen Cheney, Brig Gen Carlos E. Martinez, BG
Marianne Watson, RADM John Hutson, and RDML Harold L. Robinson As Amici
Curiae in Support of Petitioners to be delivered to the Court and an electronic version
of the document to be delivered to:
Ria Tabacco Mar
ACLU
125 Broad Street, 18th Floor
New York, NY 10004-2400
(212) 549-2500
rmar@aclu.org
Counsel for National Coalition For Men,
et al.

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Selective Service System, et
al.

/s/ Lindsay C. Harrison
Lindsay C. Harrison

